No.:____________

In The
Supreme Court of the United States
IN THE MATTER OF THE CLAIM OF
FRANK DeLUCIA,
Petitioner,
v.
GREENBUILD, LLC, et al.,
Respondent,

-andWORKERS' COMPENSATION BOARD,
Respondent.

On Petition for a Writ of Certiorari to
the New York State Court of Appeals
APPENDIX FOR A WRIT OF CERTIORARI
JOHN F. CLENNAN, ESQ.
Attorney for Petitioner
P.O. Box 1143
2206 Ocean Avenue
Ronkonkoma, New York 11779
(631) 588-6244
deanofrpps@yahoo.com
DICK BAILEY SERVICE, Inc. · 1-800-531-2028
[REPRODUCED ON RECYCLED PAPER]

·

dickbailey.com

i
TABLE OF APPENDIX
Page
A. Decision dated September 10, 2020
denying leave to appeal of the New York State
Court of Appeals Matter of DeLucia v
Greenbuild, LLC, __ NY3d ___, 2020 NY Slip
Op 71245 (2020) ..................................................... 1a
B. Supreme Court, Appellate Division,3rd
Department Matter of DeLucia v Greenbuild,
LLC, 18 AD3d 874, 122 NYS3d 181 (3d Dept,
2020) .................................................................. 2a-9a
C. Decision and Order of the New York State
Worker’s Compensation Board
(unreported) ................................................... 10a-41a
D. Relevant Statutes
NY Civil Practice Law and Rules
§2302. Authority to issue......................... 42a-43a
§2308. Disobedience of subpoena. (a) ...... 43a-46a
Rule 3107. Notice of taking oral questions .... 46a
State Administrative Procedure Act
§301. Hearings ......................................... 47a-48a
Workers’ Compensation
§20.Determinationof claims for
compensation ........................................... 48a-53a
§23. Appeals ............................................. 53a-57a
§121. Depositions ............................................ 57a
§141. General powers and duties of the
chair.......................................................... 57a-59a
12 NYCRR-NY 300.10 Adjournment of
hearings.................................................... 59a-61a

1a

State of New York
Court of Appeals

Decided and Entered on the
tenth day of September, 2020

Present, Hon. Janet Difiore, Chief Judge, presiding.
Mo. No. 2020-394
In the Matter of the Claim of Frank DeLucia,
Appellant,
v.
Greenbuild, LLC, et al.,
Respondents.
Workers’ Compensation Board,
Respondent.

Appellant having moved for leave to appeal to
the Court of Appeals in the above cause;
Upon the papers filed and due deliberation, it
is
ORDERED, that the motion is denied.

John P. Asiello
Clerk of the Court

2a

State of New York
Supreme Court, Appellate Division
Third Judicial Department
Decided and Entered: April 23, 2020

528344

In the Matter of the Claim of
FRANK DeLUCIA,
Appellant,
MEMORANDUM & ORDER
v.
GREENBUILD, LLC, et al.,
Respondents,
WORKERS’ COMPENSATION BOARD
Respondent.
Calendar Date: February 18, 2020
Before: Egan Jr., J.P., Lynch, Mulvey, Devine and
Colangelo, JJ.
John F. Clennan, Ronkonkoma, for appellant.
Vecchione, Vecchione, Connors & Cano, LLP,
Garden City Park (Brian M. Anson of counsel), for
Greenbuild, LLC and another, respondents.

3a

Foley, Smit, O’Boyle & Weisman, Hauppauge
(Warren J. Fekett of counsel), for ACE American Ins.
Co., respondent.

Mulvey, J.
Appeal from a decision of the Worker’s
Compensation Board, filed July 12, 2018, which
ruled, among other things, that claimant did not
sustain casually-related injuries and denied his
claim for worker’s compensation benefits.
Claimant submitted a worker’s compensation
claim for various injuries that he attributed to
repetitive motion while working in construction as a
drywall finisher. The claim was controverted by
claimant’s
employers
and
their
worker’
compensation carriers (hereinafter collectively
referred to as the carriers). Following a hearing, by
decision filed in June 2017, the case was transferred
to a special part for expedited hearings (see Worker’s
Compensation Law § 25 [3] [d]), and the parties were
directed to submit – within 55 days – transcripts of
depositions of three of claimant’s treating
physicians, George Kakoulides, Bennett Brown and
Robert Lippe (see 12 NYCRR 300.38 [g] [11]).
Depositions were not completed within the required
55 days. Between August 2017 and January 2018,
attorneys for the carriers served a series of five
subpoenas duces tecum, with notices to take
depositions, on each of the three physicians,

4a

directing them to appear on specified dates after the
deadline – in October 2017 and December 2017 – a
Workers’ Compensation Law Judge (hereinafter
WCLJ) essentially granted extensions of time in
which to complete the depositions, apparently due,
in part, to notice of the claim being provided to an
additional employer and its carrier. At the December
appearance, the WCLJ indicated that he would issue
a reserved decision after the depositions were
completed.
Brown and Lippe ultimately failed to appear
on any of the dates repeatedly rescheduled for their
depositions, and they were never deposed. After four
nonappearances,
Kakoulides,
claimant’s
neurosurgeon, ultimately testified in February 2018,
opining that claimant’s diagnosis was “severe
degenerative disc disease” but conceding that he was
unable to offer an opinion regarding causation. With
one exception, the only reason given for the
physicians’ nonappearances is the general statement
that they were not available on scheduled dates. The
orthopedic surgeon who conducted an independent
medical examination of claimant for the carriers
submitted a report finding no evidence that
claimant’s diagnosis of generalized degenerative
idiopathic osteoarthritis was causally related to his
employment.
The WCLJ issued a reserved decision
disallowing the claim, finding that Brown and Lippe
had failed to make themselves available for
testimony and that Kakoulides was unable to

5a

provide evidence of causation. On claimant’s
administrative appeal, the Workers’ Compensation
Board affirmed. The Board found, among other
things, that the testimony and reports of Brown and
Lippe were properly precluded, rejecting claimant’s
request for additional time to arrange for their
depositions. Claimant appeals.
We affirm. We are not persuaded by
claimant’s argument that the Board erred either in
precluding the testimony and reports of Brown and
Lippe or in disallowing the claims. Claimant’s
contentions are premised upon the erroneous
supposition that the carriers were obligated to
enforce the subpoenas of these witnesses through
court action pursuant to 12 NYCRR 300.10 (c),
rather than moving to preclude. To begin, it was
claimant who bore “the burden of establishing, by
competent medical evidence, a causal relationship
between [his] injur[ies] and his…employment”
(Matter of Cartafalsa v Zurich Am. Ins. Co., 175
AD3d 1762, 1763 [2019] [internal quotation marker
and citation omitted]). The parties, all of whom
intended to conduct those depositions within 55
days, which did not occur; at least two extensions
were granted to accomplish this and, although the
physicians were subpoenaed on five separate
occasions, Brown and Lippe failed to attend any of
the scheduled dates. No valid explanation or
sufficient excuse was ever provided by claimant for
their failure to appear, and no “extraordinary
circumstances” were shown to warrant further

6a

extension of time for depositions in this expedited
case (12 NYCRR 300.10 [c]). Even when the
physicians failed to appear for a fourth and fifth
scheduled subpoenaed deposition on February 13,
2018 and February 16, 2018, respectively, claimant’s
attorneys merely requested further extensions,
stating that the law firm would continue its
unspecified efforts to obtain physicians’ testimony
and follow up with their medical offices to determine
the reasons for their nonappearances. Although the
carriers requested preclusion on several occasions,
claimant merely generically opposed that request
with no indication that the physicians’ testimony
could be procured. Even in February 2018, almost
seven months after the depositions were ordered, the
affirmation of claimant’s attorney requesting
another extension only conclusorily alleged that the
two physicians “are not available within the [time
frame] requested” due to their “limited availability.”
While claimant is correct that the carriers
could have invoked court action to enforce and
compel compliance with their subpoenas in order to
cross-examine the treating physicians (see 12
NYCRR 300.10 [c]; CPLR 2308 [b]), the carriers were
not obligated to do so. Indeed, the Board has
addressed the effect of the regulation addressing
adjournments of carrier-requested depositions on
preclusion of physician testimony and reports, and
has interpreted the regulation as requiring a review
of the carrier's compliance with any direction by the
WCLJ when an extension of time was granted (see
Employer: Town of Hempstead Dept. of San., 2017

7a

WL 2714073, *3, 2017 NY Wrk Comp LEXIS 8594,
*7-9 [WCB No. G079 9815, June 19, 2017];
Employer: Raymond Desamours, 2016 WL 7494019,
*5-7 , 2016 NY Wrk Comp LEXIS 13667, *15-18
[WCB No. GlOO 7356, Dec. 22, 2016]). Notably,
"[t]he directions set forth in the WCLJ ' s decision
are to specify the terms of the additional
adjournment (i.e . the deadline and whether the
filing of an affidavit of service or enforcement of a
subpoena is required)" (Employer: Raymond
Desamours, 2016 WL 7494019 at *5). Specifically,
the Board has determined that, "[w]ith respect to
enforcement of a subpoena, if the WCLJ's decision
granting a[n additional] adjournment required the
carrier to enforce a subpoena, then the failure to do
so should result in a finding that the carrier has
waived its right to cross-examine [the] claimant's
doctor. If the WCLJ's decision granting a[n
additional] adjournment is silent as to enforcement
of a subpoena, however, no such obligation exists.
While 12 NYCRR 300.10 (c) notes only that the
obligation to invoke court action is that of the
carrier, the regulation does not specifically require
that this occur" at any specific time (Employer:
Raymond Desamours, 2016 WL 7494019 at *6).
Inasmuch as the WCLJ did not direct the carriers to
enforce their subpoenas when permitting additional
time for the depositions, the carriers had no
obligation to seek court orders to compel the
attendance of claimant's treating physicians rather
than to seek preclusion of their testimony and
reports (Employer: Town of Hempstead Dept. of
San., 2017 WL 2714073 at *3; Employer:
Consolidated Edison Co. of NY, 2017 WL 2714035,

8a

*5, 2017 NY Wrk Comp LEXIS 8556, *11-12 [WCB
No. G129 7812, June 15, 2017]).
Contrary to claimant's argument, the presumption
contained in Workers' Compensation Law§ 21 (5) for
medical reports does not limit the Board's authority
to preclude the testimony and reports of treating
physicians who fail to appear for depositions under
subpoena. 1 By ordering, seven months earlier, that
the case be expedited and transcripts of the
depositions be produced, a WCLJ had put the parties
on notice that, "[a]bsent good cause shown as to why
a deposition was not taken and the transcript(s) filed
as directed, the record may be closed and a decision
rendered." Under these circumstances, we discern no
basis upon which to conclude that the Board erred in
resolving the claim on the record before it, without
the testimony or reports of the two physicians who
failed to appear for any of the scheduled depositions
(see 12 NYCRR 300.10 [c]; Matter of Feliciano v
Copstat Sec. Corp., 29 AD3d 1243, 1243-1244
(2006]). Given the absence of evidence of causation,
the claim was properly denied (see Matter of Kaplan
v New York City Tr. Auth., 178 AD3d 1262, 1264
[2019]).
Egan Jr., J.P., Lynch, Devine and Colangelo, JJ.,
concur.

Claimant’s argument that he was entitled to
the
statutory
presumption
in
Worker’s
Compensation Law § 21 is unpreserved, as he did
not raise this issue before the WCLJ or the Board.
1

9a

ORDERED that the decision is affirmed, without
costs.
ENTER:

Robert D. Mayberger
Clerk of the Court

10a

State of New York – Workers’ Compensation
Board
In regard to Drank Delucia, WCB Case #G177
9309
MEMORANDUM OF BOARD PANEL
DECISION
keep for your records
Opinion By: Steven A Crain
Mark R. Stasko
Ellen O. Paprocki
By an application dated January 29, 2019 the
appellant requests that the Workers' Compensation
Board (Board) settle the record on appeal to the
Appellate Division, Third Department (Third
Department), from the Board Panel's Memorandum
of Decision filed on July 12, 2018. The Board Panel's
decision determined that the testimony and reports
of Dr. Lippe and Dr. Brown were properly precluded
and denied claimant's request for cross-examination
of Dr. D'Ambrosio.
12 NYCRR 300.18(e) provides that "[t]he board, upon
request of any party, shall render a written decision
in the event that there is an unresolved dispute as to

11a

the record list or the contents of the file" (see also 22
NYCRR 800.18[4]).
FACTS
On November 21, 2018, the appellant served a
proposed record list on the parties of interest. The
proposed record list identified 81 documents to be
included in the record on appeal and framed the
issue on appeal as:
Was the decision made July 12, 2018 precluding the
testimony and reports of Dr. Lippe and Dr. Brown
and denying the right to cross-examine Dr.
D'Ambrosio made in violation of lawful procedure,
affected by an error of law or arbitrary and
capricious or an abuse of discretion, including abuse
of discretion as to the extent of the penalty of the
preclusion and/or forfeiture of right of crossexamination, or unsupported by substantial evidence
on the record as a whole.
By a letter dated December 11, 2018, the
respondent-carrier, Phoenix Insurance Company c/o
Travelers Insurance Company, requested that the
following changes be made to the proposed record
list:
1. correct item #42 to reflect the actual date of
filing (11/ 28/2017) and Doc ID# (295096465);
2. that the following documents be removed
from the record list:

12a

- Items #71 and #72 as they are medical
reports which were received in evidence at the
time the Law Judge rendered his decision and
are relevant to the issues on appeal;
- Item # 73 as it was not available for review
by the Law Judge at the time of his decision
and is not relevant to the issues on appeal;
- Items #76 and #79 as they are medical
reports not available to the Law Judge at the
time of his decision and therefore have no
bearing on the issues on appeal; and
- Item #77 as it post-dates the Law Judge's
decision and bears no relevance to the issues
on appeal.
3. that the following documents be
the record list:
- RB-89.2, dated 8/10/2018
309312347);
- RB-89.3, dated 8/27/2018
310060885);
- RB-89.3, dated 9/10/2018
310843501); and
- EBRB-5, dated 9/26/2018
311531478).

included in
(Doc

ID

(Doc

ID

(Doc

ID

(Doc

ID

The Office of the Attorney General (OAG) stipulated
to the proposed record list on January 4, 2019.
On January 15, 2019, the respondent-carrier,
Phoenix Insurance Company c/o Travelers Insurance
Company, withdrew their request to include the 4
documents listed on page 2 of their 12/11/2018
correspondence and renewed their request for

13a

corrections to Item # 42 and for removal of Items
#71-73, 76, 77 and 79.
In a letter dated January 24, 2019, the respondentcarrier, ACE/USA/ESIS, requested that the medicals
generated after the Law Judge's decision, which
were not referenced or relied on in the 4/4/2018
appeal which was addressed by the EBRB-1 dated
7/12/2018, be removed from the record list. The
respondent argued that while those documents may
have been in the case folder prior to the Board Panel
decision being appealed, the appeal from the Law
Judge's decision does not reference them, nor is
there any supplementary appeal application seeking
to incorporate them into the record.
On January 29, 2019, appellant submitted an
application to the Board, seeking Board resolution of
the record list on appeal. Appellant argues that with
respect to respondent-carrier, Phoenix Insurance
Company c/o Travelers Insurance Company, the
record should be deemed as correct as the
respondent did not provide objections within 20
days. Appellant notes that respondent-carrier,
ACE/USA/ESIS, objects to the inclusion of:
 C-4.2 (Dr. Brown dated 4/26/18 - Doc ID
304164876);
 PD-NSL dated 4/26/18 (Doc ID 303264217);
and
 C-4.2 (Dr. Lippe dated 5/21/18 - Doc ID
305368346.

14a

Appellant argues that all documents that were in the
board file on the date of filing of the Board Panel
decision being appealed should be permitted to be
included in the record on appeal.
In a letter dated February 20, 2019, respondentcarrier, ACE/USA/ESIS, reiterated its position that
Items # 76, 77 and 79 should be excluded from the
record list.
LEGAL ANALYSIS
22 NYCRR 800.18(1) provides that the record on
appeal from a decision of the Board shall "contain a
copy of each item of the record necessary to consider
the questions raised, including those items appellant
reasonably assumes will be relied upon by a
respondent."
The Board Panel finds that all 81 of the of the
documents contained in appellant's proposed record
list, dated November 21, 2018, were properly
included in the record list as the documents were all
in the case file and available for consideration when
the Board issued its decision on July 12, 2018.
CONCLUSION
Accordingly, the appellant's request that the Board
settle the record on appeal pursuant to 12 NYCRR
300.18(e) and 22 NYCRR 800.18(4) is resolved as
indicated above.
All concur.

15a

Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC
Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EBRB-1 (4/99)
FILE COPY

16a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
MEMORANDUM OF BOARD PANEL
DECISION
keep for your records
Opinion By: Steven A. Crain
Mark R. Stasko
Ellen O. Paprocki
The claimant requests review of the Workers'
Compensation Law Judge (WCLJ) Reserved Decision
filed on March 7, 2018. ACE American Insurance
Company c/o ESIS, on behalf of CBI Drywall Corp.,
filed a timely rebuttal. Phoenix Ins. Co. on behalf of
Greenebuild, LLC, filed a timely rebuttal.
ISSUES
The issues presented for administrative review are:
1. Whether the testimony and reports of Dr. Lippe
and Dr. Brown were properly precluded; and

17a

2. Whether the claimant is entitled to crossexamination of Dr. D'Ambrosio, the carrier's
consultant.
FACTS
This is a claim for injuries to the claimant's right
shoulder, left shoulder, back, neck, right hand and
right knee resulting from repetitive motion while
working for the employer in construction as a dry
wall finisher.
By Notice of Decision filed on July 27, 2017, the
parties were directed to depose Dr. Kakoulides, Dr.
Brown and Dr. Lippe. The deposition transcripts
were due within 55 days for further adjudication.
The claimant was directed to produce union records.
The carriers raised issues of controversy and the C8. ls were held in abeyance. The WCLJ found prima
facie medical evidence for the neck (Dr. Kakoulides
6/14/ 17). PFME had already been found for the right
wrist/hand, left ring trigger finger, right middle and
ring trigger fingers (Dr. Brown 10/6/16). The case
was continued on the question of ANCR.
On August 8, 2017, subpoenas were issued for the
testimony of Dr. George Kakoulides, Dr. Bennett
Brown, and Dr. Robert Lippe on September 5, 6 and
8, 2017. Drs. Kakoulides, Brown, and Lippe failed to
appear at their depositions.
A hearing was held on October 25, 2017 at which the
WCLJ granted the parties an extension to depose the
three physicians.

18a

Drs. Brown, Lippe and Kakoulides were subpoenaed
and schedule to testify on December 18, 2017,
however on that date, all three doctors indicated
that they were unavailable and their testimonies
were not taken.
Drs. Brown, Lippe, and Kakoulides were subpoenaed
and scheduled to testify, once again, on December
20, 2017, however on that date, all three doctors
failed to appear for their depositions.
A hearing was held on December 29, 2017, the
claimant provided testimony regarding his claim. At
the conclusion of the hearing, the WCLJ allowed the
parties additional time to complete the depositions.
Upon receipt of the depositions, a reserve decision
would be issued. Subpeonas were issued for the
testimony of Dr. Kakoulides, Dr. Lippe, and Dr.
Brown for February 13, 2018, however they failed to
appear for their depositions.
Subpeonas were issued for the testimony of Dr.
Kakoulides, Dr. Lippe, and Dr. Brown for February
16, 2018, however Dr. Lippe and Dr. Brown failed to
appear.
Deposition testimony was provided by Dr.
Kakoulides regarding the claimant's condition. He
testified that he examined the claimant twice, once
on June 14, 2017 and the second time on October 17,
2017. Dr. Kakoulides testified that the releveant
history is the claimant presented with years of
increasing neck pain, neck stiffness, pain in his

19a

shoulders. He could not comment on what these
symptoms are attributable to as he did not have that
in his notes.
The claimant underwent an independent medical
examination on February 1, 2018 with Dr. Philip
D'Ambrosio.
By Reserved Decision filed on March 7, 2018, the
WCLJ noted that Dr. Lippe and Dr. Brown were
each served with a subpoena, but both physicians
failed to make themselves available for testimony. It
was further noted that Dr. Kakoulides failed to
satisfy a reasonable degree of medical certainty on
the issue of causation. The claim was therefore
disallowed.
LEGAL ANALYSIS
The claimant asserts in the application for review
that the disallowance of the claim was improper. It
is argued that the claimant should not be punished
for the nonappearance of Dr. Lippe and Dr. Brown.
It is asserted that the claimant did not have the
opportunity to request cross-examination of Dr.
D'Ambrosio. The claimant requests that the
disallowance of the claim be rescinded and the
parties be allowed a further opportunity to schedule
depositions for Dr. Lippe and Dr. Brown. The
claimant further requests the opportunity to crossexamine Dr. D'Ambrosio. The claimant attached
new/additional evidence in the form of emails to his
application.

20a

In rebuttal, ACE American Insurance Company c/o
ESIS, on behalf of CBI Drywall Corp., contends that
Drs. Lippe and Brown failed to appear for
depositions on different occasions. While Dr.
Kakoulides did make himself available for
testimony, he concluded that he really did not have
an opinion on causality. Furthermore, it is noted
that there was no request to cross-exaimine Dr.
D'ambrosio before the record closed in the matter.
In its rebuttal, Phoenix Ins. Co. on behalf of
Greenebuild, LLC, adopts the rationale advocated by
ACE American Insurance Company and further
notes that the claimant has failed to meet his burden
in establishing a causal relationship between his
employment and his disability by the submission of
adequate medical evidence. Alternatively, the carrier
argues that the claimant's application does not meet
the requirements ofl2 NYCRR 300.13 in that the
answer to #13 (Hearing dates, transcripts,
documents, exhibits, and other evidence) on the RB89 is deficient. The carrier requests that the decision
be affirmed in full.
RB-89-12NYCRR 300.13
12 NYCRR 300.13(b)(l)(iii) provides that if the
appellant seeks to introduce additional documentary
evidence in the administrative appeal that was not
presented before the Workers' Compensation Law
Judge, the appellant must submit a sworn affidavit,
setting forth the evidence, and explaining why it
could not have been presented before the Workers'
Compensation Law Judge. The Board has discretion

21a

to accept or deny such newly filed evidence. Newly
filed evidence submitted without the affidavit will
not be considered by the Board Panel.
The Board Panel notes that, with the application for
review, the claimant submitted documentation that
was not submitted before the WCLJ. These
documents were not before the WCLJ at the time of
the hearing, and the record does not contain a sworn
affidavit from the appellant, setting forth the
evidence, and explaining why it could not have been
presented before the WCLJ.
The Board Panel notes that the claimant's response
to #13 in the RB-89 is adequate and the carrier's
assertion to the contrary has no merit.
Therefore, the Board Panel finds, upon review of the
record and based upon a preponderance of the
evidence, that the newly filed evidence, submitted
without an affidavit, will not be considered by the
Board Panel, in accordance with 12 NYCRR
300.13(b)(l)(iii). The Board Panel will, nevertheless,
consider the remainder of the Application for Board
Review.
Preclusion of Dr. Lippe and Dr. Brown's
Testimony/Reports
If the request for a second adjournment to take
testimony of the treating physician was granted,
the cross-examination of the doctor still does
occur within the timeframe provided for in
decision granting the second adjournment,

the
but
not
the
the

22a

carrier must comply with all of the WCLJ's
directions for requesting a further extension of time
(Matter of Raymond Desamours, 2016 NY Wrk
Comp Gl007356). If the extension was properly
requested, the carrier must then demonstrate that it
served a subpoena, as directed in the decision
granting a second adjournment (id).
If the claimant's doctor has demonstrated
extraordinary circumstances for his or her nonappearance, a subsequent adjournment should be
granted (12 NYCRR 300.l0[c]). This regulation
allows for a further adjournment, and in any
decision granting the request for a third
adjournment, the WCLJ must specify the terms of
the additional adjournment (i.e. the deadline and
whether the filing of an affidavit of service or
enforcement of a subpoena is required) (Raymond
Desamours, 2016 NY Wrk Comp G1007356).
In the instant case, the parties were granted two
extensions to obtain the deposition testimony of Dr.
Kakoulides, Dr. Lippe and Dr. Brown. Dr.
Kakoulides eventually provided testimony in this
case, however Dr. Lippe and Dr. Brown did not. It is
noted that during the course of the claim, Dr. Lippe
and Dr. Brown were subpoenaed on five separate
occasions and failed to attend all five depositions.
The only excuse provided was that they were not
available. The Board Panel finds that as there were
no extraordinary circumstances demonstrated which
prevented Drs. Lippe and Brown from appearing for
their depositions, and as such, they were properly
precluded.

23a

Cross-Examination of Dr. D'Ambrosio
The claimant's opportunity to cross-examine a
carrier's consulting physician is not specifically
provided in 300.10(c), but is permitted under tenets
of due process. The carrier's consultant's report is
subject to scrutiny akin to the report of any expert,
as it does not enjoy the presumption accorded to the
reports introduced into evidence by claimants under
WCL § 21(5).
Here, the claimant argues that he should be granted
a further opportunity to cross-examine Dr.
D'Ambrosio, the carrier's consultant. However, there
is no indication in the record that a request for crossexamination was made prior to the issuance of the
March 7, 2018 Reserved Decision. The claimant was
made aware at the December 29, 2017 hearing that
a reserved decision would be issued upon receipt of
the deposition transcripts of the treating physicians.
Between the time of the IME examination of
February 1, 2018 and the date of the decision, the
claimant had a month to request the opportunity to
cross-examine Dr. D'Ambrosio, but failed to do so.
Thus, the Board Panel finds that the claimant's
request for cross-examination of Dr. D'Ambrosio is
denied as it was not made in a timely manner.
CONCLUSION
ACCORDINGLY, the WCLJ Reserved Decision filed
on March 7, 2018 is AFFIRMED. The claim is
disallowed and the case is closed.

24a

All concur.

Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC
Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EBRB-1 (4/99)
FILE COPY

25a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
RESERVED DECISION
keep for your records
Based upon a review of the evidence in the record
involving the claim for benefits relative to Frank
Delucia, Judge Peter Georgalos made the following
decision, findings and directions:
This is a controverted matter involving an
occupational claim for the claimant Frank Delucia.
The record having been developed the following
decision is rendered:
The matter was set for the testimony of the
claimant, Frank Delucia and 2 lay witnesses Charles
Ohlimiller and John Donahue. Depositions were
directed od Dr. George Kakoulides and Dr. Robert
Lippe and Dr. Bennet Brown.
The claimant testified on September 4, 2017 and
December 29,2017. The claimant testified he was a
Dry Wall Finisher and had been doing this

26a

employment around 35 years. The last time the
claimant did work as a Dry Wall finisher was August
of 2017 for the company Donninger Construction.
There were 2 lay witnesses a Mr. Charles O. and a
Mr. John D. who testified on September 14, 2017.
The witnesses coraberated the testimony of the
claimant on work duties.
The
claimant's
neuro-surgeon,
Dr.
George
Kakoulides was deposed on February 16, 2018. Dr.
Kakoulides examined the claimant on June 14, 2017
and October 17, 2017. Dr. Kakoulides testified that
he reviewed the MRI of the cervical spine performed
on February 1, 2017. The MRI revealed severe disc
degeneration throughout. Most severe was C4-5, C56 and C6-7 and evidence of cord compression at C6-7.
Dr. Kakoulides testified the claim ant had neck pain
and stiffness radiating down both shoulders. Dr.
Kakoulides did not obtain any information on work
related duties. Dr. Kakoulides when asked what
where the claimant's complaints attributable to, he
was unable to answer.
Dr. Robert Lippe and Dr. Bennet Brown were each
served with a subpoena. Both physicians failed to
make themselves available for testimony.
The testimony of Dr. Kakoulides failed to satisfy a
reasonable degree of medical certainty on the issue
of causation. The claim is therefore disallowed.
Summery of Findings
DECISION: claim disallowed. No further action is

27a

planned by the Board at this time.
Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC
Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EC-23R (4/98)
FILE COPY

28a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
NOTICE of RESOLUTION regarding
TREATMENT
Variance Request
keep for your records
This resolution is being issued in the above cited
case in accordance with the Board's Medical
Treatment Guidelines for work-related injuries
involving the knee, shoulder, neck, mid and low
back, and carpal tunnel syndrome.
The issue under review is whether the provider
should be granted a Variance from the Medical
Treatment Guidelines to provide the following
treatment/test: "MRI CERVICAL SPINE W/O
CONIRAST".
Based upon a review of the applicable Medical
Treatment Guidelines and the Board's file
pertaining to the above cited case, the Workers'
Compensation Board finds as follows:

29a

The treatment/test is not approved. The Board has
reviewed the carrier's (or employers or self-insured
employer's) report denying the request for a
Variance from the Medical Treatment Guidelines
and such treatment/test and payment thereof is not
approved because a cervical MRI provided consistent
with the guidelines would not require a variance.
The provider failed to indicate why the proposed
treatment would fall outside the recommendations of
the guidelines requiring an MG-2 form to vary, and
failed to provide rationale of why treatment outside
the recommendations would be appropriate.
PLEASE NOTE: The carrier is not liable for
payment unless and until the case is established to
the applicable injury site.
The above finding is the final decision of the Board.
Medical Treatment Guidelines Reference:
N-C.l.a
The first letter indicates body part: K = Knee, S =
Shoulder, B = Mid and Lower Back, N = Neck, C =
Carpal Tunnel
The last four characters indicate the corresponding
section of the WCB Medical Treatment Guidelines.
Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC

30a

Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EC-71 (6/12)
FILE COPY

31a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
NOTICE OF DECISION
keep for your records
At the Workers' Compensation hearing held on
10/25/2017 involving the claim of Frank Delucia at
the Hempstead hearing location, Judge Peter
Georgalos made the following decision, findings and
directions:
DECISION: C-8.1's Held In Abeyance pending
testimony. Case is continued.
Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC

32a

Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EC-23 (4/98)
FILE COPY

33a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
NOTICE OF DECISION
keep for your records
At the Workers' Compensation hearing held on
09/14/2017 involving the claim of Frank Delucia at
the Hempstead hearing location, Judge Peter
Georgalos made the following decision, findings and
directions:
DECISION: During todays testimony claimant
testified to another company he last worked for CBI
67 B Otis Street B West Babylon NY 11704 and their
carrier for August 2017. Case is continued.
Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –

34a

District Office – NYC
Employer – GREENEBUILD LLC
Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EC-23 (4/98)
FILE COPY

35a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
NOTICE OF DECISION
keep for your records
At the Workers' Compensation hearing held on
07/24/2017 involving the claim of Frank Delucia at
the Hempstead hearing location, Judge Carol
Bretscher made the following decision, findings and
directions:
DECISION: This claim has been designated by the
chair as a matter to be transferred to the special
part for expedited hearings pursuant to Workers'
Compensation Law Section 25(3)(d) and 12 NYCRR
300.34 and/or 300.38. The purpose of this Expedited
Hearing is to resolve any and all outstanding issues.
If a further hearing is required, the case shall be
continued to the earliest possible date, but no later
than thirty days following this Expedited Hearing.

36a

Once the expedited hearing date is set there shall be
no adjournments, except in case of an emergency.
Any request for adjournment deemed frivolous by
the chair shall result in a penalty up to one thousand
dollars. The employer, carrier, attorney or licensed
representative who requested an adjournment
deemed frivolous will be held responsible for
payment of the penalty. No penalty, however, shall
be imposed on an unrepresented claimant who
requests an adjournment.
Parties are directed to submit deposition
transcript(s) of Dr. Kakoulides, Dr. Brown, Dr.
Lippe, pursuant to Sections 121 and 142 of the New
York State Workers' Compensation Law. Deposition
transcript(s) should be submitted by 55 days for
further adjudication by a WC Law Judge. To insure
the timely submission of the deposition transcript(s),
the party requesting the cross-examination shall, as
soon as possible and after consulting with the
deponent and other parties to the extent possible,
arrange for and schedule the deposition(s), giving
notice to the deponent and complying with the
provisions of 12 NYCRR 300. l 0. The carrier is
directed to provide a copy of the deposition
transcript to the Board. Requests for extension of
time to file a deposition transcript(s), if any, must be
filed prior to the date upon which the transcripts are
due and must be in the form of an affirmation or
affidavit with copies forwarded to the claimant,
employer/carrier, and all representatives. Absent
good cause shown as to why a deposition was not
taken and the transcript(s) filed as directed, the
record may be closed and a decision rendered. A

37a

medical witness is entitled to a witness fee pursuant
to Part 301 of Title 12 of the Official Compilation of
Codes, Rules and Regulations of the State of New
York. Within ten days of the completion of a
witness's deposition, the party responsible for such
witness's fee, if any, pursuant to the Workers'
Compensation Law and regulations, shall remit
payment of the fee to the witness. The fee is to be
awarded in like manner as a witness fee, awarded
for attendance at a hearing, irrespective of the
location where the deposition takes place (including
telephone and video testimony). If the witness
believes that a fee in excess of that set in Part 301 is
warranted, such witness must submit a request to
the Board within ten days of the deposition. The
Board will review such request and issue a
subsequent decision concerning whether an
additional fee is warranted.
Claimant is directed to produce union records.
Carriers raise issues of controversy. C-8.lBs are Held
In Abeyance.
I find Prima Facie Medical Evidence for the neck
(Dr. Kakoulides 6/14/17). PFME had already been
found for the right wrist/hand, left ring trigger
finger, right middle and ring trigger fingers (Dr.
Brown 10/6/16). The case is continued to address the
following issue(s): Failure To Report Accident
Timely, No Causal Relationship (No Injury Per
Statutory Definition), No Causal Relationship (No
Medical Evidence of Injury), No Compensable
Accident/Not in Course and Scope of Employment
(Not WCL Definition of Accident), No Compensable

38a

Accident/Not in Course and Scope of Employment
(Presumption of compensability, as defined by the
jurisdiction, does not apply).
Information about Next Hearind/Meeting
Question of ANCR
Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC
Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EC-23 (4/98)
FILE COPY

39a

State of New York – Workers’ Compensation
Board
In regard to Frank Delucia, WCB Case #G177
9309
NOTICE OF DECISION
keep for your records
At the Workers' Compensation hearing held on
06/19/2017 involving the claim of Frank Delucia at
the Hempstead hearing location, Judge Carol
Bretscher made the following decision, findings and
directions:
DECISION: This claim has been designated by the
chair as a matter to be transferred to the special
part for expedited hearings pursuant to Workers'
Compensation Law Section 25(3)(d) and 12 NYCRR
300.34 and/or 300.38. The purpose of this Expedited
Hearing is to resolve any and all outstanding issues.
If a further hearing is required, the case shall be
continued to the earliest possible date, but no later
than thirty days following this Expedited Hearing.

40a

Once the expedited hearing date is set there shall be
no adjournments, except in case of an emergency.
Any request for adjournment deemed frivolous by
the chair shall result in a penalty up to one thousand
dollars. The employer, carrier, attorney or licensed
representative who requested an adjournment
deemed frivolous will be held responsible for
payment of the penalty. No penalty, however, shall
be imposed on an unrepresented claimant who
requests an adjournment. Carrier raises issues of
controversy.
I find Prima Facie Medical Evidence for right the
wrist/hand, left ring trigger finger and right middle
and ring trigger fingers (Dr. Brown 3/30/17).
CLAIMANT to produce Prima Facie Medical
Evidence for the neck, back, shoulders, left wrist and
right knee.
CLAIMANT alleges a date of disablement in October
2016 while working for Donninger Construction.
Board to investigate coverage in October 2016 for
Donninger Construction located at 211 Holly Lane,
Smithtown, NY for coverage at the following
locations: Syosset Fire Depatment house on So
Oyster Bay Road and Jericho Quadrange. Board to
Place on notice: Donninger Construction and ther
appropriate carrier or carriers.
C-8.1Bs are Held In Abeyance. The case is continued
to address the following issue(s): Failure To Report
Accident Timely, No Causal Relationship (No Injury

41a

Per Statutory Definition), No Causal Relationship
(No Medical Evidence of Injury), No Compensable
Accident/Not in Course and Scope of Employment
(Not WCL Definition of Accident), No Compensable
Accident/Not in Course and Scope of Employment
(Presumption of compensability, as defined by the
jurisdiction, does not apply).
Information about Next Hearing/Meeting
Question of coverage, proper employer, DOD and
ANCR/OCNCR.
Claimant – Frank Delucia
Social Security No. –
WCB Case No. – G177 9309
Date of Accident –
District Office – NYC
Employer – GREENEBUILD LLC
Carrier – Phoenix Insurance Company
Carrier ID No. – W177000
Carrier Case No. – E9W5385
Date of Filing of this Decision – 04/30/2019
ATENCION:
Pueder llamar a la oficina de la Junta de
Compensacion Obrera, en su area correspondiente,
cuyo numero de telefono aparece al principio de la
pagina y pida informacion acerca de su
reclamacion(caso).
EC-23 (4/98)
FILE COPY

42a

APPENDIX -- RELEVANT STATUTES
Civil Practice Law and Rules
§ 2302. Authority to issue. (a) Without court order.
Subpoenas may be issued without a court order by
the clerk of the court, a judge where there is no
clerk, the attorney general, an attorney of record for
a party to an action, an administrative proceeding or
an arbitration, an arbitrator, a referee, or any
member of a board, commission or committee
authorized by law to hear, try or determine a matter
or to do any other act, in an official capacity, in
relation to which proof may be taken or the
attendance of a person as a witness may be required;
provided, however, that a subpoena to compel
production of a patient's clinical record maintained
pursuant to the provisions of section 33.13 of the
mental hygiene law shall be accompanied by a court
order. A child support subpoena may be issued by
the department, or the child support enforcement
unit coordinator or support collection unit supervisor
of a social services district, or his or her designee, or
another state's child support enforcement agency
governed by title IV-D of the social security act.
(b) Issuance by court. A subpoena to compel
production of an original record or document where a
certified transcript or copy is admissible in evidence,
or to compel attendance of any person confined in a
penitentiary or jail, shall be issued by the court.
Unless the court orders otherwise, a motion for such
subpoena shall be made on at least one day's notice
to the person having custody of the record, document

43a

or person confined. A subpoena to produce a prisoner
so confined shall be issued by a judge to whom a
petition for habeas corpus could be made under
subdivision (b) of section seven thousand two of this
chapter or a judge of the court of claims, if the
matter is pending before the court of claims, or a
judge of the surrogate's court, if the matter is
pending before the surrogate's court, or a judge or
support magistrate of the family court, if the matter
is pending before the family court, or a judge of the
New York city civil court, if the matter is pending
before the New York city civil court and it has been
removed thereto from the supreme court pursuant to
subdivision ( d) of section three hundred twenty-five
of this chapter. In the absence of an authorization by
a patient, a trial subpoena duces tecum for the
patient's medical records may only be issued by a
court.
§ 2308. Disobedience of subpoena. (a) Judicial.
Failure to comply with a subpoena issued by a judge,
clerk or officer of the court shall be punishable as a
contempt of court. If the witness is a party the court
may also strike his or her pleadings. A subpoenaed
person shall also be liable to the person on whose
behalf the subpoena was issued for a penalty not
exceeding one hundred fifty dollars and damages
sustained by reason of the failure to comply. A court
may issue a warrant directing a sheriff to bring the
witness into court. If a person so subpoenaed attends
or is brought into court, but refuses without
reasonable cause to be examined, or to answer a
legal and pertinent question, or to produce a book,
paper or other thing which he or she was directed to

44a

produce by the subpoena, or to subscribe his or her
deposition after it has been correctly reduced to
writing, the court may forthwith issue a warrant
directed to the sheriff of the county where the person
is, committing him or her to jail, there to remain
until he or she submits to do the act which he or she
was so required to do or is discharged according to
law. Such a warrant of commitment shall specify
particularly the cause of the commitment and, if the
witness is committed for refusing to answer a
question, the question shall be inserted in the
warrant.
(b) Non-judicial. (1) Unless otherwise provided, if a
person fails to comply with a subpoena which is not
returnable in a court, the issuer or the person on
whose behalf the subpoena was issued may move in
the supreme court to compel compliance. If the court
finds that the subpoena was authorized, it shall
order compliance and may impose costs not
exceeding fifty dollars. A subpoenaed person shall
also be liable to the person on whose behalf the
subpoena was issued for a penalty not exceeding fifty
dollars and damages sustained by reason of the
failure to comply. A court may issue a warrant
directing a sheriff to bring the witness before the
person or body requiring his appearance. If a person
so subpoenaed attends or is brought before such
person or body, but refuses without reasonable cause
to be examined, or to answer a legal and pertinent
question, or to produce a book, paper or other thing
which he was directed to produce by the subpoena,
or to subscribe his deposition after it has been
correctly reduced to writing, the court, upon proof by
affidavit, may issue a warrant directed to the sheriff

45a

of the county where the person is, committing him to
jail, there to remain until he submits to do the act
which he was so required to do or is discharged
according to law. Such a warrant of commitment
shall specify particularly the cause of the
commitment and, if the witness is committed for
refusing to answer a question, the question shall be
inserted in the warrant.
(2) Notwithstanding the provisions of paragraph
one of this subdivision, if a person fails to comply
with a subpoena issued pursuant to section one
hundred eleven-p of the social services law by the
office of temporary and disability assistance or a
social
services
district,
or
its
authorized
representative, or another state's child support
enforcement agency governed by title IV-D of the
social security act, such office or district is
authorized to impose a penalty against the
subpoenaed person. The amount of the penalty shall
be determined by the commissioner of the office of
temporary and disability assistance and set forth in
regulation, and shall not exceed fifty dollars.
Payment of the penalty shall not be required,
however, if in response to notification of the
imposition of the penalty the subpoenaed person
complies immediately with the subpoena.
(c) Review of proceedings. Within ninety days after
the offender shall have been committed to jail he
shall, if not then discharged by law, be brought, by
the sheriff, or other officer, as a matter of course
personally before the court issuing the warrant of
commitment and a review of the proceedings shall
then be held to determine whether the offender shall

46a

be discharged from commitment. At periodic
intervals of not more than ninety days following
such review, the offender, if not then discharged by
law from such commitment, shall be brought, by the
sheriff, or other officer, personally before the court
issuing the warrant of commitment and further
reviews of the proceedings shall then be held to
determine whether he shall be discharged from
commitment. The clerk of the court before which
such review of the proceedings shall be held, or the
judge or justice of such court in case there be no
clerk, shall give reasonable notice in writing of the
date, time and place of each such review to each
party or his attorney who shall have appeared of
record in the proceeding resulting in the issuance of
the warrant of commitment, at their last known
address.
Rule 3107. Notice of taking oral questions. A party
desiring to take the deposition of any person upon
oral examination shall give to each party twenty
days' notice, unless the court orders otherwise. The
notice shall be in writing, stating the time and place
for taking the deposition, the name and address of
each person to be examined, if known, and, if any
name is not known, a general description sufficient
to identify him or the particular class or group to
which he belongs. The notice need not enumerate the
matters upon which the person is to be examined. A
party to be examined pursuant to notice served by
another party may serve notice of at least ten days
for the examination of any other party, his agent or
employee, such examination to be noticed for and to
follow at the same time and place.

47a

State Administrative Procedure Act
§ 301. Hearings. 1. In an adjudicatory proceeding,
all parties shall be afforded an opportunity for
hearing within reasonable time.
2. All parties shall be given reasonable notice of
such hearing, which notice shall include (a) a
statement of the time, place, and nature of the
hearing; (b) a statement of the legal authority and
jurisdiction under which the hearing is to be held; (c)
a reference to the particular sections of the statutes
and rules involved, where possible; (d) a short and
plain statement of matters asserted; and (e) a
statement that interpreter services shall be made
available to deaf persons, at no charge, pursuant to
this section. Upon application of any party, a more
definite and detailed statement shall be furnished
whenever the agency finds that the statement is not
sufficiently definite or not sufficiently detailed. The
finding of the agency as to the sufficiency of
definiteness or detail of the statement or its failure
or refusal to furnish a more definite or detailed
statement shall not be subject to judicial review. Any
statement furnished shall be deemed, in all respects,
to be a part of the notice of hearing.
3. Agencies shall adopt rules governing the
procedures on adjudicatory proceedings and appeals,
in accordance with provisions of article two of this
chapter, and shall prepare a summary of such
procedures in plain language. Agencies shall make
such summaries available to the public upon
request, and a copy of such summary shall be
provided to any party cited by the agency for

48a

violation of the laws, rules or orders enforced by the
agency.
4. All parties shall be afforded an opportunity to
present written argument on issues of law and an
opportunity to present evidence and such argument
on issues of fact, provided however that nothing
contained herein shall be construed to prohibit an
agency from allowing parties to present oral
argument within a reasonable time. In fixing the
time and place for hearings and oral argument, due
regard shall be had for the convenience of the
parties.
5. Unless precluded by statute, disposition may be
made of any adjudicatory proceeding by stipulation,
agreed settlement, consent order, default, or other
informal method.
6. Whenever any deaf person is a party to an
adjudicatory proceeding before an agency, or a
witness therein, such agency in all instances shall
appoint a qualified interpreter who is certified by a
recognized national or New York state credentialing
authority to interpret the proceedings to, and the
testimony of, such deaf person. The agency
conducting the adjudicatory proceeding shall
determine a reasonable fee for all such interpreting
services which shall be a charge upon the agency.
Workers' Compensation
§ 20. Determination of claims for compensation. 1.
At any time after the expiration of the first seven
days of disability on the part of an injured employee,

49a

or at any time after the employee's death, a claim for
compensation may be presented to the employer or
to the chair. The board shall have full power and
authority to determine all questions in relation to
the payment of claims presented to it for
compensation under the provisions of this chapter.
The chair or board shall make or cause to be made
such investigation as it deems necessary, and upon
application of either party, shall order a hearing,
and within thirty days after a claim for
compensation is submitted under this section, or
such hearing closed, shall make or deny an award,
determining such claim for compensation, and file
the same in the office of the chair. Immediately after
such filing the chair shall send to the parties a copy
of the decision. Upon a hearing pursuant to this
section either party may present evidence and be
represented by counsel. The decision of the board
shall be final as to all questions of fact, and, except
as provided in section twenty-three of this article, as
to all questions of law. Except as provided in section
twenty-seven of this article, all awards of the board
shall draw simple interest from thirty days after the
making thereof at the rate provided in section five
thousand four of the civil practice law and rules.
Whenever a hearing or proceeding for the
determination of a claim for compensation is begun
before a referee, pursuant to the provisions of this
chapter, such hearing or proceeding or any
adjourned hearing thereon shall continue before the
same referee until a final determination awarding or
denying compensation, except in the absence,
inability or disqualification to act of such referee, or
for other good cause, in which event such hearing or

50a

proceeding may be continued before another referee
by order of the chair or board.
2. (a) Notwithstanding subdivision one of this
section, any claim for compensation by (i) judges,
conciliators, and managerial or confidential
employees of the workers' compensation board and
state insurance fund who are allocated to a grade M1
or above pursuant to section one hundred thirty of
the civil service law, (ii) the chair, vice-chair and
members of the workers' compensation board, and
(iii) the executive director, deputy executive directors
and members of the board of commissioners of the
state insurance fund shall not be within the
jurisdiction of the workers' compensation board but
instead shall be determined by a neutral outside
arbitration process as provided by regulations
promulgated by the chair. Such claims shall be filed
in the same manner as any other claim for
compensation under this chapter.
(b) All issues and questions of law or fact pertaining
to such claims shall be resolved by the arbitrator
appointed pursuant to this paragraph. Arbitrators
shall be appointed by the chair to adjudicate claims
under this paragraph. Such arbitrators shall have
the same powers and duties as those accorded
referees under this chapter, including powers
delegated by the chair. The provisions of this chapter
shall be applicable to claims under this paragraph
insofar as they are not inconsistent herewith.
(c) An award or decision by an arbitrator pursuant
to this paragraph is deemed to be a final decision of
the board except if review of such decision is sought

51a

as provided in paragraph (d) of this subdivision. No
modification, rescission or review of such award or
decision may be entertained by the board,
notwithstanding any provision of this chapter to the
contrary.
(d) Within thirty days after notice of the filing of an
award or decision by an arbitrator, any party in
interest may request review of the arbitrator's
decision by a panel of three arbitrators in the same
manner and to the same extent as the decision by a
referee may be reviewed by the board pursuant to
section twenty-three of this article. The arbitration
panel shall consist of one arbitrator nominated by
the chair, one arbitrator nominated by a recognized
alternative dispute resolution organization and one
arbitrator nominated by an employee organization
certified pursuant to article fourteen of the civil
service law to represent the collective bargaining
unit of the injured employee or, if the injured
employee is not represented by a collective
bargaining unit, by the recognized alternative
dispute resolution organization. A party in interest
may seek review of such award or decision of an
arbitration panel only by taking appeal therefrom to
the appellate division of the supreme court, third
department and the court of appeals as provided for
decisions of the board pursuant to section twentythree of this chapter.
(e) The powers and jurisdiction of the arbitration
panel established pursuant to this subdivision shall
be continuing in the same manner and to the same
extent as provided under this chapter to the board.

52a

(f) All fees, costs and expenses of arbitration shall
be borne by the board and the state insurance fund
as administration expenses pursuant to sections
eighty-eight and one hundred fifty-one of this
chapter.
(g) Any claim for compensation by an officer or
employee of the board or state insurance fund not
required to be determined by a neutral outside
arbitration process pursuant to paragraph (a) of this
subdivision shall be determined initially by a referee
with review of such determination available
pursuant to section twenty-three of this chapter.
(h) For any claim for compensation by an officer or
employee of the workers' compensation board or the
state insurance fund whether or not such claim is
required to be determined by a neutral outside
arbitration process pursuant to paragraph (a) of this
subdivision, the referee or arbitrator making the
initial finding of fact concerning any medical issue
present in the case shall develop the record with
opinion evidence from an impartial specialist who is
an expert in the appropriate medical specialty. Such
impartial specialist shall be subject to crossexamination at the request of any party in interest.
(i) The state insurance fund shall administer the
claim of any officer or employee of the state
insurance fund at an office of the state insurance
fund other than the office which was, at the time of
injury, disablement or death of such officer or
employee, his or her principal workplace.
(j) The chair shall promulgate regulations
necessary to implement this subdivision. Such

53a

regulations shall include provisions in relation to
this subdivision for a single arbitrator to determine a
claim in the first instance and a panel of three
arbitrators to review such decision upon the
application of any party in interest prior to judicial
review. Such regulations shall also include all
special procedures relating to the handling of claims
of officers or employees of the workers' compensation
board and the state insurance fund pursuant to
paragraph (f) of this subdivision.
3. Notwithstanding any other provision of law to
the contrary, a member of the workers' compensation
board, a referee or any arbitrator in connection with
the adjudication of any claim arising under this
chapter shall recuse himself or herself on any ground
a judge may be disqualified pursuant to section
fourteen of the judiciary law.
§ 23. Appeals. An award or decision of the board
shall be final and conclusive upon all questions
within its jurisdiction, as against the state fund or
between the parties, unless reversed or modified on
appeal therefrom as hereinafter provided. Any party
may within thirty days after notice of the filing of an
award or decision of a referee, file with the board an
application in writing for a modification or rescission
or review of such award or decision, as provided in
this chapter. The board shall render its decision
upon such application in writing and shall include in
such decision a statement of the facts which formed
the basis of its action on the issues raised before it
on such application. Within thirty days after notice
of the decision of the board upon such application
has been served upon the parties, or within thirty

54a

days
after
notice
of
an
administrative
redetermination review decision by the chair
pursuant to subdivision five of section fifty-two,
section one hundred thirty-one or section one
hundred forty-one-a of this chapter has been served
upon any party in interest, an appeal may be taken
therefrom to the appellate division of the supreme
court, third department, by any party in interest,
including an employer insured in the state fund;
provided, however, that any party in interest may
within thirty days after notice of the filing of the
board panel's decision with the secretary of the
board, make application in writing for review thereof
by the full board. If the decision or determination
was that of a panel of the board and there was a
dissent from such decision or determination other
than a dissent the sole basis of which is to refer the
case to an impartial specialist, or if there was a
decision or determination by the panel which
reduced the loss of wage earning capacity finding
made by a compensation claims referee pursuant to
subparagraph w of subdivision three of section
fifteen of this article from a percentage at or above
the percentage set forth in subdivision three of
section thirty-five of this article whereby a claimant
would be eligible to apply for an extreme hardship
redetermination to a percentage below the threshold,
the full board shall review and affirm, modify or
rescind such decision or determination in the same
manner as herein above provided for an award or
decision of a referee. If the decision or determination
was that of a unanimous panel of the board, or there
was a dissent from such decision or determination
the sole basis of which is to refer the case to an

55a

impartial specialist, the board may in its sole
discretion review and affirm, modify or rescind such
decision or determination in the same manner as
herein above provided for an award or decision of a
referee. Failure to apply for review by the full board
shall not bar any party in interest from taking an
appeal directly to the court as above provided. The
board may also, in its discretion certify to such
appellate division of the supreme court, questions of
law involved in its decision. Such appeals and the
question so certified shall be heard in a summary
manner and shall have precedence over all other
civil cases in such court. The board shall be deemed
a party to every such appeal from its decision upon
such application, and the chair shall be deemed a
party to every such appeal from an administrative
redetermination review decision pursuant to
subdivision five of section fifty-two of this chapter.
The attorney general shall represent the board and
the chair thereon. An appeal may also be taken to
the court of appeals in the same manner and subject
to the same limitations not inconsistent herewith as
is now provided in the civil practice law and rules. It
shall not be necessary to file exceptions to the
rulings of the board. An appeal to the appellate
division of the supreme court, third department, or
to the court of appeals, shall not operate as a stay of
the payment of compensation required by the terms
of the award or of the payment of the cost of such
medical, dental, surgical, optometric or other
attendance, treatment, devices, apparatus or other
necessary items the employer is required to provide
pursuant to section thirteen of this article which are
found to be fair and reasonable. Where such award is

56a

modified or rescinded upon appeal, the appellant
shall be entitled to reimbursement in a sum equal to
the compensation in dispute paid to the respondent
in addition to a sum equal to the cost of such
medical, dental, surgical, optometric or other
attendance, treatment, devices, apparatus or other
necessary items the employer is required to provide
pursuant to section thirteen of this article paid by
the appellant pending adjudication of the appeal.
Such
reimbursement
shall
be
paid
from
administration expenses as provided in section one
hundred fifty-one of this chapter upon audit and
warrant of the comptroller upon vouchers approved
by the chair. Where such award is subject to the
provisions of section twenty-seven of this article, the
appellant shall pay directly to the claimant all
compensation as it becomes due during the pendency
of the appeal, and upon affirmance shall be entitled
to credit for such payments. Neither the chair, the
board, the commissioners of the state insurance fund
nor the claimant shall be required to file a bond
upon an appeal to the court of appeals. Upon final
determination of such an appeal, the board or chair,
as the case may be, shall enter an order in
accordance therewith. Whenever a notice of appeal is
served or an application made to the board by the
employer or insurance carrier for a modification or
rescission or review of an award or decision, and the
board shall find that such notice of appeal was
served or such application was made for the purpose
of delay or upon frivolous grounds, the board shall
impose a penalty in the amount of five hundred
dollars upon the employer or insurance carrier,
which penalty shall be added to the compensation

57a

and paid to the claimant. The penalties provided
herein shall be collected in like manner as
compensation. A party against whom an award of
compensation shall be made may appeal from a part
of such award. In such a case the payment of such
part of the award as is not appealed from shall not
prejudice any rights of such party on appeal, nor be
taken as an admission against such party. Any
appeal by an employer from an administrative
redetermination review decision pursuant to
subdivision five of section fifty-two of this chapter
shall in no way serve to relieve the employer from
the obligation to timely pay compensation and
benefits otherwise payable in accordance with the
provisions of this chapter. Nothing contained in this
section shall be construed to inhibit the continuing
jurisdiction of the board as provided in section one
hundred twenty-three of this chapter.
§ 121. Depositions. The chairman or board may
cause depositions of witnesses residing within or
without the state to be taken in the manner
prescribed by law for like depositions in civil actions
in the supreme court.
§ 141. General powers and duties of the chair. The
chair shall be the administrative head of the
workers' compensation board and shall exercise the
powers and perform the duties in relation to the
administration of this chapter heretofore vested in
the commissioner of labor by chapter fifty of the laws
of nineteen hundred twenty-one, and acts

58a

amendatory thereof, and by this chapter excepting
article six thereof, and except in so far as such
powers and duties are vested by this chapter in the
workers' compensation board. The chair shall
preside at all meetings of the board and shall
appoint all committees and panels of the board; shall
designate the times and places for the hearing of
claims under this chapter and shall perform all
administrative functions of the board as in this
chapter set forth. The chair, in the name of the
board, shall enforce all the provisions of this chapter,
and may make administrative regulations and
orders providing for the receipt, indexing and
examining of all notices, claims and reports, for the
giving of notice of hearings and of decisions, for
certifying of records, for the fixing of the times and
places for the hearing of claims, and for providing for
the conduct of hearings and establishing of calendar
practice to the extent not inconsistent with the rules
of the board. The chair shall issue and may revoke
certificates
of
authorization
of
physicians,
chiropractors and podiatrists as provided in sections
thirteen-a, thirteen-k and thirteen-I of this chapter,
and licenses for medical bureaus and x-ray and other
laboratories under the provisions of section thirteenc of this chapter, issue stop work orders as provided
in section one hundred forty-one-a of this article, and
shall have and exercise all powers not otherwise
provided for herein in relation to the administration
of this chapter heretofore expressly conferred upon
the commissioner of labor by any of the provisions of
this chapter, or of the labor law. The chair, on behalf
of the workers' compensation board, shall enter into
the agreement provided for in section one hundred

59a

seventy-one-h of the tax law, and shall take such
other actions as may be necessary to carry out the
agreement provided for in such section for matching
beneficiary records of workers' compensation with
information provided by employers to the state
directory of new hires for the purposes of verifying
eligibility for such benefits and for administering
workers' compensation.
12 NYCRR-NY 300.10
300.10 Adjournment of hearings.
(a) If the claimant or his or her attorney or
representative fails to appear at the first hearing,
the referee may adjourn the hearing, except that the
referee may decide an uncontroverted claim if there
be in the file a claim and substantial evidence
supporting such claim and the referee finds that the
information therein is sufficient. The notice to the
claimant for the second hearing shall inform him or
her that such adjourned hearing is being held
because of his or her failure to appear at the first
hearing, and that if he or she or his or her attorney
or representative fails to appear the case may be
decided in his or her absence. If the claimant or his
or her attorney or representative again fails to
appear at the second hearing, the referee shall then
proceed to make a decision unless he or she finds
sufficient basis for further adjournment, which
reasons shall be noted on the record. Where the
claim has been controverted the case may be
adjourned and the file referred to the supervising
referee for investigation as to the cause of the
claimant's nonappearance.

60a

(b) If the employer or its carrier, or a special fund
created under the Workers' Compensation Law, fails
to present evidence including the testimony of
witnesses as directed or scheduled by the board or
chair, the referee, upon request of such party, may
adjourn the hearing and reschedule the case. If the
employer or its carrier or a special fund again fails to
present or submit evidence at the second hearing,
the referee shall proceed to make a decision unless
he or she finds upon extraordinary circumstances
shown at such hearing that a further adjournment is
warranted. The denial of adjournments under this
rule shall not be grounds for application for review to
the board.
(c) When the employer or its carrier or special fund
desires to produce for cross-examination an
attending physician whose report is on file, the
referee shall grant an adjournment for such purpose.
If the physician is not produced at such adjourned
hearing, a further adjournment shall be granted only
when the referee finds there is sufficient excuse for
the physician's nonappearance, which excuse shall
be noted on the record and conditioned upon the
resort by the employer or its carrier, or special fund
to a subpoena for the next hearing. If such
adjournment is granted and the physician does not
appear, unless extraordinary circumstances are
shown, the referee shall proceed to determine the
claim upon the evidence in the record. The obligation
to invoke court action for the enforcement of the
subpoena shall be that of the employer or its carrier
or special fund.

61a

(d) Whenever the records in a claim clearly indicate
that the claim is not within the jurisdiction of New
York State the referee may at the first hearing
disallow the claim for lack of jurisdiction and shall
state the reasons for his action.
12 NYCRR-NY 300.10

